No.

Statute

Supreme Court of tfjc Untteb States
TODD A. ENGLISH,
Petitioner,
v.
SONNY PERDUE, Secretary, USDA,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Todd A. English
Proceeding Pro Se
4009 Lakecliff Drive
Harker Heights, TX 76548
512-289-1169
ensw777@aol.com

RECEIVED
FEB - 5 2020

1

QUESTIONS PRESENTED
I.

Did the Court(s) err in its discretion in applying
the standard for “plausible cause for relief,” as it
relates to dismissing a claim during pretrial mo­
tions when applied to Title VII and ADEA com­
plaints)?

II.

First, Fifth and Sixth Amendments, should the
Court consider “violations of the law(s),” specifi­
cally “due process,” when determining “plausible
cause for relief” when applied to Title VII and
ADEA claims?

III. Did the Court err in its discretion when it allowed
English’s Attorney of Record to withdraw after
only providing a “conclusory statement”?

I] <V

IV.

Did the Court err in its discretion when it failed
to consider “temporal proximity,” as it relates to
Ker’s conclusory statement, when it allowed him
to withdraw from this case?

V.

Sixth Amendment, was the USDA “investigation”
of part of Attorney Ker’s representational responsibil­
ities as it relates to English’s third EEO complaint?

VI. Did the investigation the USDA conducted against
English violate my constitutional rights under
the First, Fifth and Sixth Amendments?
VII. Is evidence submitted into the docket part of the
same case, and not just items submitted in the
“original complaint”?
Vm. First, Fifth and Sixth Amendments, is it legal for
the Department of Justice to represent an agency,
who’s managers have violated the Civil Rights of
a Federal Employee who has Constitutional guar­
antees of Due Process of the law(s)?

11

LIST OF ALL PARTIES
TO THE PROCEEDINGS
The following is a list of all parties to the proceed­
ings in the Court below, as required by Rule 14.1(b)(i),
(hi).
Documents under Rule 29.1, 2, 3, 4(a) have been
timely filed, properly served with 3 copies and the ap­
propriate federal agency has been notified.
1.

Todd A. English, Plaintiff-Appellant

2.

Sonny Purdue, Secretary, USDA, DefendantAppellee
RELATED CASES

Todd A. English v. Thomas J. Vilsack, Secretary, U.S.
Dept, of Agriculture United States District Court, for
the Western District of Texas, No. 6:16-CV-306, Com­
plaint filed July 29,2016.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Amended
Complaint filed July 13, 2017.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Complaint
filed July 29, 2016.

Ill

RELATED CASES - Continued
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Report and
Recommendations entered March 2, 2018.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Order
Denying Motion to Withdraw entered March 29, 2018.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Order
Granting Motion to Withdraw entered May 14, 2018.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 6:16-CV-306, Order
Adopting in Part and Rejecting in Part entered May 23,
2018.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 18-50530 Appeal filed
entered July 3, 2018.
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 18-50530 Judgement en­
tered June 19,2019.

IV

RELATED CASES - Continued
Todd A. English v. Sonny Perdue, Secretary, U.S. Dept,
of Agriculture United States District Court, for the
Western District of Texas, No. 18-50530 Order, Rehear­
ing Denied entered September 6, 2019.

V

TABLE OF CONTENTS
Page
Questions Presented................................

1

List of All Parties to the Proceedings....

n

Related Cases..........................................

n

Table of Contents.....................................

v

Table of Authorities.................................

Vll

Petition for a Writ of Certiorari.............

1

Opinions Below........................................

1

Jurisdiction..............................................

2

Constitutional and Statutory Provisions

3

Statement of the Case.............................

6

Reasons for Granting the Petition.........

9

Conclusion................. ....................... .......

30

APPENDIX
Unpublished Judgment of the United States
Court of Appeals for the Fifth Circuit, Appeal,
signed June 19, 2019.................. ..................... App. 1
Unpublished Order of the U.S. District Court,
rendering “Moot,” the Motion to Reconsider
Allowing Attorney to Withdraw, dated June 4,
App. 14
2018
Unpublished Order of the U.S. District Court,
Adopting in Part and Rejecting in Part, Dis­
App. 18
missal of the Case, dated May 23, 2018

VI

TABLE OF CONTENTS - Continued
Page
The unpublished Order of the Magistrate in the
U.S. District Court, Granting the Attorney of
Record to Withdraw, dated May 14, 2018..... App. 50
The unpublished Report and Recommendations
of the U.S. District Court, signed by the Dis­
trict Magistrate, dated March 2, 2018
App. 52
The unpublished Order of the United States
Court of Appeals for the Fifth Circuit, Rehear­
ing En Banc, signed Sept. 6,2019
App. 68

Vll

TABLE OF AUTHORITIES
Page
Cases
Ashcroft v. Iqbal, 556 U.S. 662 (2009)................. 15,16
Augustson v. LAN-Chile, S.A., 76 F.3d 658 (5th
Cir. 1996)............................................................

18

Bell Atlantic v. Twombly, 550 U.S. 544,127 S.Ct.
1955,167 L.Ed.2d 929 (2007)............ ..............

12

Burlington Industries, Inc. v. Ellerth, 524 U.S.
742(1998)....................................... ................... 12,16
Conley v. Gibson, 355 U.S. 41, 78 S.Ct. 99 (1957)....... 9
Kolstad v. American Dental Association, 527 U.S.
526,119 S.Ct. 2118,144 L.Ed.2d 494 (1999)........ 13
Matter of Wynn, 889 F.2d 644 (5th Cir. 1998)..... 21, 22
McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973).................................................................

11

Mekdeci v. Merrill National Laboratories, 711
F.2d 1510 (11th Cir. 1983).................................

22

Streetman v. Lynaugh, 674 F. Supp. 229 (E.D.
Tex. 1987).............. ;..........................................

22

Stewart v. Nafl Educ. Ass’n, 471 F.3d 169 (D.C.
Cir. 2006)...........................................................

29

Tyanne Davenport v. Edward Jones & Company,
L.P, No. 17-30388 (5th Cir. May 22,2018)......

9

United States v. Ramey, 559 F. Supp. 60 (E.D.

Tenn. 1981)................................................

22

Vlll

TABLE OF AUTHORITIES - Continued
Page
Statutes
Age Discrimination in Employment Act of 1967 ...passim
Constitution of the United States......

3, 4, 25, 29, 30

First Amendment, Freedom of Speech ......... 3,25, 27
Fifth Amendment, Due Process of the Law
passim
Sixth Amendment, Right to Confront Witnesses,
to Know Charges, to Counsel
4,14, 25, 27
Federal Rules of Civil Procedure 8(a)(2), (3).

4,12

Rule 19, Supreme Court Rules......................

29

Title V, Part 752.203b....................................

13

Title VII, Civil Service Reform Act of 1964/78

passim

Title 38, U.S.C. § 4311...................................

10

5 U.S.C. Part III Subpart F 7116, Non-Supervisors
Monitoring others.............................................

14

5 U.S.C. §432.104.................................................. 6,13
5 U.S.C. §§ 2302 and 2302(b), Whistle Blower
Protections..........................................................
10
28 U.S.C. § 1254.....................................................
3
28 U.S.C. § 1331.....................................................

4

29 CFR 1614.108(f) thru 1614.110, Investiga­
tion of Complaints
13,15, 28

IX

TABLE OF AUTHORITIES - Continued
Page
Regulations
Labor Management Relations Agreement

13,15,17

USDA Departmental Regulations 4070-735-001,
Sec. 11, Sec. 18, Sec. 20(b), USDA Employee
Responsibilities and Conduct........................... 14,15
MSPB Principles, Rule 2, Rule 9.......................... 10,13
Rule 3(a), Local Court Rules, U.S. District Court
for the Eastern District of Texas......................

22

Tex. Code Prof. Resp. EC2-31 (Vernon 1973).......

22

Texas State Bar Rules of Ethics...........................

18

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner, Todd A. English (I, me), having first­
hand knowledge of the events in this case, respect­
fully Petitions the United States Supreme Court for a
Writ of Certiorari to review the pre-trial, pre-discovery,
judgment of the United States Fifth Circuit Court of
Appeals (5th Circuit) and for the United States Dis­
trict Court for the Western District of Waco Texas (Dis­
trict Court) in this case.
The legal citations and arguments used are those
of a layperson without any formal or informal legal
training. Therefore, I respectfully request this Court’s
indulgence.
This Petition is lengthy, but there are eight ques­
tions regarding more than sixty violations of the 1st,
5th and 6th Amendments and various other law(s), pol­
icies and regulations. I kept it as brief as possible.

OPINIONS BELOW
The unpublished Order of the United States Court
of Appeals for the Fifth Circuit, Rehearing En Banc,
signed September 6, 2019, App. 68.
The unpublished Judgment of the United States
Court of Appeals for the Fifth Circuit, Appeal, signed
June 19, 2019, App. 1.

2

The unpublished Order of the U.S. District Court,
rendering “Moot,” the Motion to Reconsider Allowing ,
Attorney to Withdraw, signed June 4, 2018 is App. 14.
The unpublished Order of the U.S. District Court,
Adopting in Part and Rejecting in Part, dated May 23,
2018 is App. 18.
The unpublished Order of the Magistrate in the
U.S. District Court, granting the Attorney of Record to
Withdraw, dated May 14, 2018 is App. 50.
The unpublished Report and Recommendations of
the U.S. District Court, signed by the District Magis­
trate, dated March 2, 2018. App. 52.

JURISDICTION
The judgment of the court of appeals was entered
on June 19,2019. English filed a timely Petition for Re­
hearing En Banc and it was denied on September 6,
2019.
The District Court granted Defendant’s Motion to
Dismiss, the Order was signed on May 23, 2018.
The District Court Granted my attorney’s Mo­
tion to Withdraw as Counsel of Record, the Order was
signed on May 14,2018.
A timely filed Motion to Reconsider Allowing At­
torney of Record to Withdraw, was rendered Moot, the
Judgment was signed on June 4, 2018.

3

The jurisdiction of this Court is invoked under 28
U.S.C. § 1254.

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
U.S. Const., First Amendment (Freedom of Speech)
provides:
Congress shall make no law respecting an es­
tablishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom,
of speech, or of the press, or the right of the
people peaceably to assemble, and to petition
the Government for a redress ofgrievances.
U.S. Const., Fifth Amendment (Due Process) pro­
vides:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a Grand Jury, ex­
cept in cases arising in the land or naval
forces, or in the militia, when in actual service
in time of war or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb, nor shall
be compelled in any criminal case to be a wit­
ness against himself, nor be deprived of life,
liberty, or property, without due process
of law; nor shall private property be taken for
public use without just compensation.

4
U.S. Const., Sixth Amendment (Nature of Accusa­
tion, Witnesses) provides:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the State and district
wherein the crime shall have been committed;
which district shall have been previously as­
certained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against
him; to have compulsory process for ob­
taining witnesses in his favor, and to
have the assistance of counsel for his de­
fense.
28 U.S.C. § 1331 provides;
The district courts shall have original juris­
diction of all civil actions arising under the
Constitution, laws, or treaties of the United
States.
Federal Rules of Civil Procedure 8 provides:
Claim for relief. A pleading that states a claim
for relief must contain:
(1) a short and plain statement of the
grounds for the court’s jurisdiction, unless the
court already has jurisdiction and the claim
needs no new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief;
and

5

(3) a demand for the relief sought, which
may include relief in the alternative or differ­
ent types of relief.
Title VII of the Civil Rights Act of 1964, as
amended (42 U.S.C. §§ 2000e and 1978) provides:
[I]t shall be an unlawful employment practice
for an employer to discriminate against any of
his employees . . . because he had made a
charge.
(a) sex
(b) wrongful termination; retaliation/termi­
nation for engaging in protected activity (Title
VII, 42 U.S.C. 2000e)
(c) it shall be an unlawful labor practice for
a labor organization,
(2) to limit, in any way which would de­
prive or tend to deprive any individual of em­
ployment opportunities, or would limit such
employment opportunities or otherwise ad­
versely affect his status as an employee or as
an applicant for employment, because of such
individual’s race, color, religion, sex, or na­
tional origin
(e) Government agency or official not relieved
of responsibility to assure nondiscrimination
in employment or employment opportunity.

6

STATEMENT OF THE CASE
I am a federal employee working for the United
States Department of Agriculture (USDA) since Au­
gust of 2009. In September 2014,1 was rated as “Does
Not Meet” on his annual Performance Appraisal. This
rating violated due process of federal law, 5 U.S.C.
§432.104, because I was never placed on an Oppor­
tunity to Improve (OTI) nor was I provided a Personal
Improvement Plan (PIP). Not only did those actions
not take place, but both the Program Director (Jordison) and the State Director (Valentin), were told that
they could not rate me “Does Not Meet” by Human
Resources (HR - Edwards), the Regional Program
Administrator (RPA - Connelly), the Administrative
Program Director (APD - Maedgen) and Employee Re­
lations (ER - Keim), because there is no grounds for
the rating. Both managers refused to change my rating
because promotions were coming up in December 2015
and they wanted to prevent me from being eligible to
apply. When federal employees are rated “Does Not
Meet” it has tangible effects on their job, they can’t ap­
ply for a job within their agency, nor can they apply
anywhere else within the federal government, they
don’t get their step increase in pay and these actions
put them behind for future promotions, which has an
overall effect on retirement income, so I filed a com­
plaint with the EEO.
The EEO conducted an investigation and con­
cluded that my rights were violated by the rating but
determined that I failed to “state a claim upon which
relief could be sought” and granted permission to seek

7

remedy through the courts. The USDA even went so
far as to permanently remove Jordison and send her to
another state and temporarily replaced the State Di­
rector, but they refused to compensate me for the ad­
verse action(s) taken against me.
I hired an attorney, Jon R. Ker, and paid $15,000
in retainers for representation. I continued to be har­
assed daily at work and filed 2 more EEO complaints
at the urging of Ker. The 3rd EEO complaint was due
to an “unlawful investigation” conducted by the USDA
against me regarding an email that I sent out to Union
members.
Ker assisted with the wording of the 3rd EEO com­
plaint, and referenced it during Discovery, yet his 3rd
Motion to Withdraw stating a “fundamental disagree­
ment over the scope of representation” was due to his
claim that he was not hired to represent me for the “in­
vestigation.”
Ker pressed that the best course of action was to
file under Title VII and ADEA and filed the Complaint
to that effect. After several delays over 2 years, and 2
opportunities to file a proper complaint, Ker requested
another $10,000 retainer and advised that another
$10,000 was on the horizon. I advised him that I would
pay the remainder of what I owe upon conclusion of the
trial. Ker didn’t like this response and filed a Motion
to Withdraw for Breach of Contract, which was denied.
Ker immediately filed a second motion, adding more
to the Breach of Contract argument, which was also
denied, but the magistrate added that if Ker found

8

substitute counsel, he would consider allowing his with­
drawal. Ker filed a 3rd Motion to Withdraw, changing
tactics, and provided a ‘conclusory statement’ of a “fun­
damental disagreement over the scope of representa­
tion,” with no specific information, nor any “temporal
proximity,” nor did he attempt to find substitute coun­
sel, yet the motion was granted.
The case was then dismissed for “failure to state a
claim upon which relief could be sought.”
I filed an Appeal with the Fifth Circuit, which was
denied.
I filed a Motion for Rehearing En Banc, which was
also denied.
The Fifth Circuit Court of Appeals refused to ad­
dress some of my questions, stating that they were “ex­
tensive detail not in my original complaint,” and that
“we cannot and do not consider English’s many allega­
tions advanced for the first time on Appeal.” However,
these ‘many’ and ‘extensive’ details were addressed,
and evidence submitted into the docket, during the 3
Motions to Withdraw. Since this was all part of the
same case, this evidence should have been considered
and addressed. Especially since Ker’s ‘conclusory’
claim is directly attributable to the ‘unlawful investi­
gation’ conducted by the USDA against me.
English now seeks the collective wisdom of the Su­
preme Court of the United States with a ruling on
these issues.

9
REASONS FOR GRANTING THE PETITION
I.

Dismissing the Case for Failure to State a
Claim

The Court “must consider both direct and circum­
stantial evidence but may not make ‘credibility assess­
ments,’ which are the exclusive province of the trier of
fact.” That is, “a judge’s function at summary judgment
is not ‘to weigh the evidence and determine the truth
of the matter but to determine whether there is a
genuine issue for trial,’ ” Tyanne Davenport v. Edward
Jones & Company, L.P., No. 17-30388 (5th Cir. May 22,
2018).
Conley v. Gibson, 355 U.S. 41, 78 S.Ct. 99 (1957),
states that “a complaint should not be dismissed for
failure to state a claim unless it appears beyond a
doubt that a plaintiff can prove no set of facts in sup­
port of his claim which would entitle him to relief.”
I clearly proved the elements of Disparate Treat­
ment under Title VII and ADEA in that:
1) I am a member of a protected class in
that;
I filed the OIG complaint against the
State Director that was investigated in
2014, protected class.
I filed 3 EEO complaints in 2014 and
2015, protected class.
I testified for the Union as the Steward
against the unlawful practices of USDA
management, protected class.

10
2) I proved that the discriminator(s) knew
that I was in a protected class, based upon the
complaints above against the discriminators.
3) I proved that acts of harm occurred that
had an impact on my employment, denied pay
increases and promotions.
4) I proved that management showed favor­
able treatment towards others who are simi­
larly employed.
I further proved that Discriminatory Harassment
occurred in that:
1) I am a member of a protected class.
2) The harassers are aware of my protected
class.
3) I was subjected to unwanted harassment.
4) The harassment was based upon my pro­
tected class.
I also have protections under the Whistle blower
protections of 5 U.S.C. §§ 2302 and 2302(b) for the com­
plaint that I filed against the State Director, which was
investigated in 2014, as well as the three EEO com­
plaints. I also have a military background affiliation,
which is now an identified protected class, against pro­
filing and discrimination under Title 38, U.S.C. § 4311
and MSPB Rule 9. I am retired from the U.S. Navy, 24
years, with 14 years at the SEAL Teams.
Failure to promote and posting jobs under author­
ities that favors a person over other candidates, such

11
as females and under the age of 40, or meant to exclude
a particular candidate, are violations under Title VII of
the Civil Rights Act of 1964/78, which have been ap­
plied to ADEA. As stated previously, the unlawful rat­
ing caused me to not be promotable. When I did become
eligible for promotion, they started posting jobs under
authorities that favored females who were under the
age of 40.
When applying violations of the law with Title VII
and ADEA, once a “plausible” standard has been estab­
lished, the Court(s) should shift the burden to proof
back to the Defendant to show, “but for” age and/or
“gender,” what are the reason(s) for management’s un­
lawful actions, McDonnell Douglas Corp. v. Green, 411
U.S. 792 (1973). There are far more specific instances
of harassment, but Ker failed to mention them in the
complaint, however, these could have been brought up
during Discovery. It’s not necessary to include every
piece of evidence during the pretrial stage and I still
contend that sufficient evidence was submitted within
the complaint to withstand the plausibility factor.
The bottom line is that I met all of the require­
ments under Title VII and ADEA and proved there was
more than enough “plausible cause for relief” to have
all of the evidence presented to a jury.
When the defendant argued that I “failed to state
a claim for which relief could be sought,” this was
a conclusory statement and the case was dismissed
based on that statement. The defendant should have
been required to state which elements were not met

12
and we could have provided more specific information
regarding that, but the Court(s) did not require that.
II.

Should the Court Consider Violations of
the Law(s), Specifically Due Process, When
Determining Plausible Cause for Relief When
Applied to Title VII and ADEA Cases?

The lower Courts don’t consider violations of the
law(s) when applying the standards of “plausible claim
for relief” when applied to Title VII and ADEA com­
plaints. The standard(s) used for decades are outlined
in Bell Atlantic v. Twombly; Burlington Industries, Inc.,
v. Ellerth; the Federal Rules of Civil Procedure 8(a)(2)
and Title VII, Civil Service Reform Act of 1964/78, but
these standards appear to have been raised to more of
a Prima Facie desire. However, to the extent that Con­
stitutional rights are involved, due process of the law
imparts a judicial review of the actions of administra­
tive and executive officers. Therefore, violations of the
law(s), particularly denial of due process, should be
taken into consideration in these types of cases. It’s one
thing to file civil rights complaints in federal court that
show violations were committed, but they don’t delve
into the “why” these actions occurred, and the intent of
the managers adverse actions, in the way that Title VII
and ADEA does.
When you couple the law with the other relevant
factors behind the violations, the “intent” becomes rel­
evant and obvious. “When the actions of managers are
egregious, intentional, unlawful and show malice, a

13
judgment for punitive damages can be awarded” in Ti­
tle VII and ADEA cases, Kolstad v. American Dental
Association, 527 U.S. 526, 535-34, 119 S.Ct. 2118, 144
L.Ed.2d 494 (1999).
In the absence of prima facie evidence, there
are other proven means available for establishing a
“plausible cause for relief.” When it is not immediately
evident as to the reason(s) for adverse actions of man­
agers against employees, then the totality of the cir­
cumstances must be considered. In my case, there was
never an overt mention of my age nor of my gender, but
when you look at the fact(s):
-

my 5th Amendment rights of due process
were violated by this adverse rating on
my performance appraisal. This action also
violated Title 5, Part 752.203b, 29 CFR
1614.108, the Labor/Management Agree­
ment 5.1(b) and 5 U.S.C. § 432.104.

-

this rating had a significant impact on
my career, being denied promotions (3 to
date), no pay raise, not able to apply for
other federal agencies and the financial
impact on my retirement.

-

that Jordison (female), told me on two
occasions that I need to find another
job. This action violates 5 U.S.C. §2301
and the Merit Systems Protection Board
(MSPB) Rule 2 under fair and equitable
treatment.

-

Jordison instructed other, non-supervisory,
females under the age of 40, to monitor

14
my daily activities, a direct violation of
USDA Department Regs, 4070-735-001,
Sec. 11, Sec. 18, Sec 20(b), and 5 U.S.C.
Part III, Subpart F, 7116(c) & Sec. 19.
that only females were hired after my rat­
ing and all are under the age of 40, Title
VII and ADEA
that only females were promoted after my
rating and all are under the age of 40, Ti­
tle VII and ADEA
false accusations were levied against me
for breaking and entering a federal office
and stealing documents, which of course
never happened and are in direct viola­
tion of USDA Departmental Regulations
4070-735-001, Sec. 11, Sec. 18, Sec. 20,
USDA Employee Responsibilities and Con­
duct.
When they conducted the investigation of
me, which is not related to the allegations
listed above, they refused to tell me who
the complainants were, 6th Amendment
violation of due process.
they refused to tell me what crimes or
policies I supposedly committed/violated,
6th Amendment violation.
they refused my right to counsel or to
have a Union representative available,
6th Amendment violation.
all of the female complainants met in the
State Office with the State Director and

15
worked together on the wording of their
complaints, which constitutes “Conspir­
acy to Terminate” me.
-

they placed severe restriction on my
movements throughout the building, and
then took punitive action against me for
allegedly violating those restrictions, which
I never did.

-

the state Director, Valentin, refused to co­
operate with investigation of my third
EEO complaint. This is a direct violation
of USDA Departmental Regulations 4070735-001, Sec. 20(b) and 29 CFR 1614.108.

-

they never officially concluded the inves­
tigation, because they never found any­
thing that I did wrong, even though they
went back 7 years into my past. So, they
never sent me a “Final Agency Decision”
nor did they provide me with an official
copy of the “Report of Investigation” (ROI),
I went online and found it on the HR web
site. These are direct violations of 29 CFR
1614.108(f) thru 1614.110.

Each of the issues listed above are direct viola­
tions of the law(s), policy, procedure, specifically, the
Civil Service Reform Act of 1978 under the “fair and
equitable treatment” provision, the Labor Manage­
ment Agreement, 5.1(b), and the USDA Employee Re­
sponsibilities and Conduct. Therefore, I have done far
more than simply state that “the law was broken,” I
proved it and stated each infraction of the law or stat­
ute, Ashcroft v. Iqbal, 556 U.S. 662, 6787 (2009). If

16
Ashcroft requires that a complaint states more than
stating that “the law was broke,” then it would stand
to reason that each violation of the law would be con­
sidered in connection to Title VII and ADEA com­
plaints, but the Court(s) did not do that.
When you factor in all of these violations, it be­
comes blatantly obvious that management was intent
on terminating me, however, their intent remains in
question because the Court never asked, and opposing
counsel never offered, any reason(s) for management’s
actions. The Court(s) simply took the position that the
complaint my attorney filed was void of plausible relief.
This is a travesty of justice!
The Supreme Court defined a tangible employ­
ment action as “a significant change in employment
status such as hiring, firing, failing to promote, re­
assignment with significantly different responsi­
bilities, or a decision causing a significant change
in benefits,” based on this definition, three of these
have occurred to me, demonstrating that there is clear
evidence to state a plausible claim for relief.
Burlington Industries, Inc., v. Ellerth, 524 U.S. 742
(1998), highlighted some of the deficiencies within Ti­
tle VII, when the “Court of Appeals En Banc produced
eight separate opinions and no consensus for a control­
ling rationale” when determining “vicarious liability.”
Given this, and the numerous other interpretations of
Title VII and ADEA, as well as the discretions applied
by the various courts, it is more paramount than ever
that the Federal Courts, more specifically the Supreme

17
Court, establish more defined parameters for the lower
courts in these matters. Especially since the Merit Sys­
tems Protection Board (MSPB) and the Federal Labor
Relations Board (FLRB) are in a constant state of flux,
causing lengthy periods of time before cases get heard.
Couple that with the fact that EEO personnel wash
their hands of complaints as quickly as possible, and
you get a recipe which forces employees to seek redress
in State and District Courts, where the discretions of
judges are just as varied. Judges discretions are formed
in the same manner as everyone else’s, they are driven
by past experiences, education, practicing the law and
in some instances, politically motivated. When discre­
tion is so varied, it is paramount to establish more de­
fined parameters that would encourage judges to err
on the side of the one who has already been oppressed
in some manner.
The EEO admitted that the USDA did not follow
the law(s) when it rated me “Does Not Meet” on my
performance appraisal, but they failed to take into con­
sideration the magnitude of such a rating, neither did
the Court(s). Federal employment, once given is con­
sidered property and can’t be denied without due pro­
cess. The Civil Service Reform Act of 1978, as codified
in Title 5 of the U.S. Code, requires the federal govern­
ment to follow certain procedures before depriving in­
dividuals of their inalienable rights, which means
following due process under the Fifth Amendment of
the Constitution. Title 5, part 752.203,29 CFR 1614.108
and the Labor Management Agreement, 5.1(b).

18
III.

Did the Court Err in its Discretion When it
Allowed English’s Attorney of Record to
Withdraw After Only Providing a Conclusory Statement?

The Court has established a dangerous precedent
by allowing an Attorney of Record to withdraw based
on a mere ‘conclusory statement’ of a “fundamental dis­
agreement over the scope of representation,” especially
when the attorney has already been paid $15,000. Ker
neither provided what exactly that “fundamental dis­
agreement” was, nor does this statement meet the
“good cause” standard to allow an attorney to with­
draw. “Good Cause” is typically reserved for issues such
as a client trying to get the attorney to do something
illegal or immoral, or for no communication between
the attorney and client for a long period of time, or in
some rare occurrences, for not being paid anything at
all for services rendered. None of these apply in this
case.
Ker’s first two motions to withdraw stated that he
was withdrawing because I breached the payment
terms of the contract. He referenced Augustson v. LAN
Chile, S.A., 76 F.3d 658,663 (5th Cir. 1996), but I proved
in my Response that this case has absolutely no bear­
ing on my case. In his second motion, he didn’t cite any
case law, because there is none that has ever allowed
an attorney to withdraw under these circumstances. In
fact, the Texas State Bar Rules of Ethics state ‘a dis­
pute over fees are not good cause to withdraw, espe­
cially one who has been paid $15,000. The Magistrate
did state that he would consider allowing Ker to

19
withdraw if he found substitute counsel, which Ker
never even attempted.
So, in his third motion to withdraw, Ker changed
tactics and submitted his motion “under seal” and pro­
vided the conclusory statement of a “fundamental dis­
agreement over the scope of representation.” The Court
should have required Ker to explain exactly what this
“fundamental disagreement” was about. Only then can
the court make an informed decision as to whether or
not there is “just cause” to allow his withdrawal.
However, I contend that there was no “fundamen­
tal disagreement over the scope of representation” as
Ker claimed. This was an intentional act by Ker to mis­
lead the Court, and the motion to file under seal was
just another guised tactic. The motion filed under seal
made no specific claims about anything that would
have jeopardized my case, it merely made the same
conclusory statement and was therefore unnecessary.
It wasn’t until Ker asked for more money that he tried
to claim that he was not representing me for the inves­
tigation the USDA conducted against me. However,
Ker’s claim is false because he was the one who hand
wrote corrections on my third EEO complaint before I
submitted it. He also asked opposing counsel about it
during Discovery, which was never completed due to
the case being dismissed. But both of these actions by
Ker, make it clear that he was representing me on this
issue, yet he refused to get the evidence from the
USDA managers that I requested in this case. Proof of
all of this are part of the District Court docket.

20

Ker has been negligent in his representational re­
sponsibilities of this case from the very beginning. It is
immediately evident by the fact that his first com­
plaint was so deficient that the Court granted him
leave to submit a second complaint, over a year later.
The second complaint was also devoid of numerous
facts that would have clearly raised this case beyond
the speculative level for plausible cause for relief, and
Ker possessed all of the necessary evidence because I
had been sending it to him from day one, yet he failed
again to include them.
The second complaint Ker filed was “moot” any­
way, because the District Judge denied my case based
upon the Magistrate’s Report and Recommendations of
the initial complaint. Which begs the question, if the
District Judge dismissed this case based upon the first
Motion to Dismiss the “first” complaint, and then ruled
my Motion to Reconsider Ker’s Withdrawal and “moot,”
wouldn’t the magistrate’s Order Granting the with­
drawal also be “moot”? At the very least, if the Magis­
trate is going to allow my attorney to withdraw, then
my Motion to Reconsider should have been considered
and ruled upon by the District Judge as well, and not
ruled as “moot”!
The issues above, along with my Appeal Brief,
clearly established Ker’s negligence, but instead of see­
ing the evidence that T submitted as negligence on
Ker’s part, the 5th Circuit used it to infer that the evi­
dence I provided was proof of Ker’s claim. This is ridic­
ulous, I never mentioned any of it until Ker filed his
Motion to Withdraw. So, it was not an issue between

21
Ker and I, and it’s also why Ker never argued any of
this in any of his motions. The temporal proximity of
the evidence that T submitted into the docket will sup­
port my claim.
The 5th Circuit used Matter of Wynn, 889 F.2d 644,
646 (5th Cir. 1998), to support her position to Uphold
the finding of the lower court stating, “the depth of the
disagreement is evident from the lengthy portion of
English’s brief addressing the issue,” and then quotes
from Wynn, “an attorney may withdraw from represen­
tation only upon leave of the court, and a showing of
good cause and a reasonable notice to the client.” How­
ever, she failed to take several other facts of Wynn into
consideration;
The issues in Wynn are in no way rele­
vant to my case because Wynn is a law
school graduate and should know about
the legal process, but instead, he used
stall tactics to delay, and in some in­
stances he never responded. Whereas I
have no formal or informal legal training
and I employed no such tactics. So, reliev­
ing me of my attorney put me in a very
precarious position.
Wynn Accused his attorney, and the mag­
istrate from bankruptcy court, of illegal
activity. I have never made any such
claims.
There is no proof that Wynn ever paid his
attorney anything, especially since Wynn
was forced into bankruptcy court for not

22

paying creditors. Whereas I have paid
Ker $15,000 in retainers.
The 5th Circuit also failed to include
Streetman v. Lynaugh, 674 F. Supp. 229
(E.D. Tex. 1987), into her Wynn argument.
Streetman states that “When an attorney
agrees to undertake the representation of
a client, he is expected to see the work
through to completion. Tex. Code Prof.
Resp. EC2-31 (Vernon 1973); United
States v. Ramey, 559 F. Supp. 60, 62 (E.D.
Tenn. 1981), see also Rule 3(a), Local
Court Rules, U.S. District Court for the
Eastern District of Texas. Streetman goes
on to say, “when the expressed reason for
wanting to withdraw is the existence of a
conflict of interest between attorney and
client, the record ‘must’ show an actual
conflict before granting the motion is ap­
propriate.” Mekdeci v. Merrill National
Laboratories, 711 F.2d 1510-21 (11th Cir.
1983). Mekdeci further states, “Unsub­
stantiated claims of a conflict are insuffi­
cient, especially when the client has
expressed no dissatisfaction with the at­
torney’s representation and has not
asked counsel to withdraw.” I clearly
stated that I had faith in Ker’s ability to
do his job, I was just concerned because
he had not put in the effort in my case
that he has with other cases that he was
working at the same time, but I clearly
fought to keep him on my case.

23

The fact that neither Ker, nor the Court, could pro­
duce case law to support allowing Ker to withdraw un­
der these circumstances, other than an ambiguous
comment about discretion, is very telling.
Allowing Ker to withdraw, especially since dis­
missing the case was already being considered, was a
gross miscarriage ofjustice and abuse of discretion and
caused further harm to me.
IV.

Did the Court Err in its Discretion When it
Failed to Consider Temporal Proximity, as it
Relates to Ker’s Conclusory Statement When
it Allowed Him to Withdraw From this Case?

In addition to the issues above, the Court should
require the same standard for allowing an Attorney of
Record to Withdraw from a case, that it does when it
requires a plaintiff to show “temporal proximity” when
it’s considering dismissing a case. If temporal proxim­
ity is as relevant to the evidence related to cases, then
it should be just as applicable to the evidence submit­
ted by counsel when filing a motion to dismiss. The
Court(s) did not consider this when they permitted the
Ker to withdraw. If the Court had required Ker to spe­
cifically state the reason behind his claim of a “funda­
mental dispute,” which was the investigation for which
he claims he was not hired, and then asked him when
this became an issue, the Court would have seen that
temporal proximity would have excluded his claim on
this issue alone.

24
The investigation was initiated in April 11, 2016
and I started him every piece of evidence related to it
from that day. In fact, Ker had already made correc­
tions to my 3rd EEO complaint prior to my submission
in February 2016, and then he asked defendant about
the investigation in his Discovery Questions in April
2018. Both instances occurred 24 months before, and 2
months after his initial Motion to Withdraw, which was
on February 2018. This motion also coincided with his
asking for another $10,000 retainer and stating that
another $10,000 was on the horizon. All of this, coupled
with the fact that Ker’s first two Motions to withdraw
centered around fees and a contract dispute, would
have made it abundantly clear of his intent.
This indisputable proof that it was clearly over a
fee dispute and is supported by the evidence is filed in
the District Court docket.
V.

Was the USDA Investigation of English Part
of Ker’s Representational Responsibilities
as it Relates to my Third EEO Complaint?

The Court refused to rule on the investigation con­
ducted against me, and whether or not it was part of
Ker’s representational responsibilities, stating that it
was “new” and “lengthy,” however, all of this was pre­
sented during pre-trial Motions to Withdraw, and
should be considered part of the same case.
As stated previously, Ker tried to claim that this
was not what he was hired to represent me for. How­
ever, the docket reflects that I submitted evidence

25

where Ker made hand written corrections to my 3rd
EEO complaint prior to my submission, and he asked
opposing counsel about it during Discovery. He made
the hand-written corrections the same night that he
told me that I would have to pay him the additional
$10,000 retainer, which brought what I paid him to
$15,000.
The evidence clearly shows that Ker himself
viewed the investigation as part of his responsibilities.
It wasn’t until after he was selected as Chairman of
the McClennan County Republican Party that he made
this claim.
VI.

Did the Investigation the USDA Conducted
Against English Violate His Constitutional
Rights Under the First, Fifth and Sixth
Amendments?

My Constitutional rights were further violated un­
der the First, Fifth and Sixth Amendments by manag­
ers of the USDA when they conducted an “unlawful
investigation” against me. This investigation, along
with about sixty violations of federal laws, policies and
procedures, are specifically enumerated in my Appeal
Brief. I also filed complaints with the USDA and DOJ,
but neither agency would investigate my claims, which
is another 5th Amendment violation of “due process.”
This investigation stemmed from an email that I
sent out to Union members, as the Union Steward,
while I was on leave. The content upset the females
who are friends of management, and when I advised

26

the members that those females were working with
management against the Union, those females got up­
set. All of those females met with management and
they worked together on the wording of their com­
plaints to HR - Edwards, ER - Keim, the EEO and the
Union, National Vice President - Eliano. This gather­
ing and the assisted wording of complaints constituted
“conspiracy to terminate” me. Each of them is entitled
to file complaints against me but it must be done sep­
arately and in their own words.
Each of the entities, HR, ER, the EEO and the Un­
ion to them that there is nothing wrong with the email
that I sent out and that they would not be taking any
action against me.
After they received this response, they all met
again and concocted a scheme to conduct an investiga­
tion themselves. They called it “recent workplace con­
duct” and got 26 levels of management and attorneys
involved, from Temple, Texas to Washington D.C. and
had an investigator assigned from D.C.
When the investigator questioned the females and
I, all of the questions were only about the email that I
sent out. There was nothing about “recent workplace
conduct,” proving that it was only about the email that
HR, ER, the EEO and the Union already refused to
take action against. The investigator also went back
and spoke with people with whom I had not worked
in seven years, which is another violation of due pro­
cess. Since this investigation centered around the
email, and since the email was proven to be valid

27
communication, this violated my First Amendment
right of Freedom of Speech.
When I was brought in for questioning, and to be
placed on the restrictions, they refused to:
-

Allow me to have my attorney or a Union
representative during questioning, 6th
Amendment violation.

-

They refused to advise me of the nature
of my crime(s) or policy violations, 6th
Amendment violation.

-

They refused to tell me who the complain­
ants were, 6th Amendment violation.

-

They placed me on the severe restricted
movements and reassigned my job duties
without cause or justification, 5th Amend­
ment violation of due process.

—

I was then placed on 10 weeks paid ad­
ministrative leave, 5th Amendment viola­
tion, due process.

-

I was not permitted the USDA funded
employee appreciation function in San
Antonio, 5th Amendment violation, due
process.

-

I was denied promotions while under in­
vestigation, Title VII and 5th Amendment
violation, due process.

-

I was reassigned to menial job functions,
Title VII violation and 5th Amendment vi­
olation, due process

28

-

The investigation started April 12, 2016
and the ROI was sent to USDA around
September 29, 2016. However, I was never
sent my formal copy, nor was I ever sent
the Final Agency decision. 5th Amend­
ment violation, due process, and also vio­
lates, 29 CFR 1614.108(f) states that
agencies have 180 days to complete an in­
vestigation, they have grossly exceeded
that timeline.

-

February 8, 2017, restrictions lifted, but
told that investigation is still ongoing.

-

Given a 3-Day non-paid suspension for al­
legedly violating restrictions, 5th Amend­
ment violation, due process.

All of this can be substantiated based on the ROI,
which was submitted into the District Court docket,
document #55.
However, the 5th Circuit refused to rule on this
stating that it is “new,” and “brought up for the first
time on Appeal,” and that “only items that are extraor­
dinary in nature can be reviewed for the first time on
Appeal.” If the 60 or more violations of the law, policy
and procedure, and the negligent manner in which my
attorney, Ker, handled this case are not extraordinary
circumstances, then no such case exists!

29
VII.

Is Evidence Submitted into the Docket
Part of the Same Case and Not Just the
Facts Alleged in the Complaint?

The 5th Circuit refused to consider evidence that
was entered into the District Court docket when other
Motions were argued. They claim that it was not part
of the original complaint and is therefore not part of
this case. All evidence entered into the docket of a case
has been presented to the Court as part of that case,
and therefore should be considered as part of the case.
At the very least, the 5th Circuit should have submit­
ted Certified Questions, under Rule 19, Supreme Court
Rules to the Supreme Court for a ruling as opposed to
simply dismissing them.
“In determining whether a complaint states a
claim, the Court may consider the facts alleged in the
complaint, documents attached thereto or incorporated
therein, and matters of which may take judicial no­
tice,” Stewart v. Nafl Educ. Ass’n, 471 F.3d 169, 173
(D.C. Cir. 2006).
VIII. Is it Legal for the Department of Justice
to Represent an Agency, Who’s Managers
Have Violated the Civil Rights of a Federal
Employee Who has Constitutional Guaran­
tees of Due Process of the law(s)?
The DOJ is representing the managers of an agency
who violated over sixty federal laws, rules, regulations
and procedure, including Civil Rights violations against
a federal employee who has Constitutional Rights. For
the DOJ to take this position, they are violating their

30

Oath of Office to “Seek Justice above all else” and to
“Support and Defend the Constitution.” It would seem
that this further violates my 5th Amendment rights of
Due Process.
There is no case law supporting this action, which
makes this the perfect case for the Supreme Court to
rule upon.

CONCLUSION
It is paramount that this Petition for Writ of Cer­
tiorari be granted in order to rescue justice from the
misguided discretions of the lower Court(s). There are
some disturbing trends taking place within the lower
Court(s) that are changing the interpretations of precedented case law and cases are being dismissed with­
out due consideration. This misguided practice has
caused plaintiffs to either not seek justice, or to Peti­
tion the Supreme Court, where there are far too many
cases to be heard. Which means the justice is falling
through the cracks due to this ill-gotten practice.
Appellant’s Petition for a Writ of Certiorari should
be granted in order to preserve justice.
Respectfully submitted,
Todd A. English
Proceeding Pro Se
4009 Lakecliff Drive
Harker Heights, TX 76548
512-289-1169
ensw777@aol.com

